No. 20-1373

 

IN THE
Supreme Court of the United States

 

WANZA COLE,
Petitioner,
Vv.
WAKE COUNTY BOARD OF EDUCATION,
Respondent.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on April 30, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceedings as follows:

Brian Wolfman , Colin A. Shive

Georgetown Law Appellate Courts Tharrington Smith LLP
Immersion Clinic P.O. Box 1151

600 New Jersey Ave., N.W., Ste. 312 Raleigh, NC 27602

Washington, DC 20001 cshive@tharringtonsmith.com
wolfmanb@georgetown.edu (919) 821-4711

(202) 661-6582

Counsel of Record for Petitioner Counsel for Respondent

Wanza Cole Wake County Board of Education

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 30, 2021.

   

Brianne J}
Counsel for Amicus Curiae
